TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Unauthorized and Insecure Internal
                        Web Servers Are Connected to the
                        Internal Revenue Service Network



                                         August 26, 2008

                              Reference Number: 2008-20-159




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 26, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Unauthorized and Insecure Internal Web Servers
                             Are Connected to the Internal Revenue Service Network
                             (Audit # 200720015)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is adequately controlling and securing its web servers. The audit focused on the security
 over internal web servers on the IRS network. This review was included in the Treasury
 Inspector General for Tax Administration Fiscal Year 2007 Annual Audit Plan and was part of
 the Information Systems Programs business unit’s statutory requirements to annually review the
 adequacy and security of IRS technology.

 Impact on the Taxpayer
 A web server is a computer that contains the software necessary for a web site to operate. At the
 time of our review, 1,811 internal web servers on the IRS network had not been approved to
 connect to the network, and 2,093 internal web servers connected to the network had at least
 1 high-, 1 medium-, or 1 low-risk security vulnerability. These unauthorized and insecure web
 servers placed both the computers and the entire IRS network at risk of unauthorized accesses to
 taxpayer and personally identifiable information.

 Synopsis
 The IRS requires that business units register all internal web sites and web servers with the
 Web Services Division in the Modernization and Information Technology Services organization.
 We obtained a September 2007 network scan from the IRS Computer Security Incident
 Response Center that identified 2,093 potential web servers connected to the IRS network. We
 compared the scan results to the web registration database and identified 1,811 web servers that
                            Unauthorized and Insecure Internal Web Servers
                        Are Connected to the Internal Revenue Service Network



were not in the web registration database. These 1,811 web servers were not authorized to
connect to the IRS network. We recognize that some of these unauthorized web servers could be
legitimate web servers supporting IRS operations. For example, the Enterprise Operations
organization was able to show that 661 (36 percent) of the 1,811 web servers had a legitimate
business purpose.
The risk exists that the remaining 1,150 unauthorized web servers are being used for
non-business purposes. Due to resource constraints, we conducted only limited tests to identify
non-business web servers and found none. We did identify situations in which some
unauthorized web servers were inadvertently running web services.
We attribute the existence of unauthorized web servers to 1) web server owners not registering
their servers with the web registration program, and 2) responsibility for the web registration
program remaining unassigned since September 2006. Lack of ownership over the web
registration program adversely affected the maintenance and inventory of the web registration
database. According to IRS procedures, if a web server is not registered, it might be blocked
from delivering information to the network. Because no office had responsibility for the web
registration program, this requirement was not enforced, and web servers were allowed to be
connected without proper authorization and accountability.
Web servers can pose a security risk to the IRS network. To evaluate compliance with security
guidance, we analyzed the September 2007 Computer Security Incident Response Center
vulnerability scan, which identified 2,093 authorized and unauthorized web servers with at least
1 high-, 1 medium-, or 1 low-risk security vulnerability. The scan report contained 540 web
servers with at least 1 of 160 high-risk vulnerabilities. Unauthorized servers pose a greater risk
because the IRS has no way to ensure that they will be continually configured in accordance with
security standards and patched1 when new vulnerabilities are identified. Malicious hackers or
disgruntled employees could exploit the vulnerabilities on these web servers to manipulate data
on the server or use the servers as a launching point to attack other computers on the network.
In addition to security vulnerabilities, the IRS was using 33 different web server software
packages. We believe that using as few products as possible would limit security risks, such as
monitoring for security vulnerabilities, and control costs for licensing fees, training, and
maintenance.

Recommendations
We recommended that the Chief Information Officer establish official ownership and assign
responsibilities for the web registration program, enforce IRS procedures to block unauthorized


1
 A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
                                                                                                                    2
                        Unauthorized and Insecure Internal Web Servers
                    Are Connected to the Internal Revenue Service Network



web servers from providing data over the IRS network, and require an annual scan of web
servers and comparison to the web registration database to identify unauthorized web servers.
Unauthorized web servers should be immediately disconnected from the IRS network, and
inappropriate web sites should be referred to the Treasury Inspector General for Tax
Administration Office of Investigations. In addition, web server owners should be required to
revalidate the need for the servers annually and immediately notify the Chief Information Officer
upon decommission of any web server. The Chief Information Officer should also require
quarterly network scans of web servers to measure compliance with security requirements and
limit the number of approved web software packages used in the non-modernized environment.

Response
The Chief Information Officer agreed with our recommendations. The Associate Chief
Information Officer, Enterprise Operations, was designated as the responsible official for the
web registration program and database. The IRS will identify unauthorized web servers and
create policies and procedures to prohibit them from providing data over the IRS network. Also,
the Computer Security Incident Response Center will perform recurring discoveries of enterprise
assets and provide an annual report to the web registration business owner to reconcile
discovered assets with those currently registered. Unauthorized web servers will be
disconnected, and web sites with inappropriate content will be referred to the Treasury Inspector
General for Tax Administration Office of Investigations. In addition, the Computer Security
Incident Response Center will perform quarterly security assessment scans to measure
compliance with security requirements, and business owners and system administrators will
eliminate the vulnerabilities. Lastly, the IRS will investigate the web software packages in use
and work with the Office of Enterprise Architecture to create a list of approved software.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                3
                                Unauthorized and Insecure Internal Web Servers
                            Are Connected to the Internal Revenue Service Network




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Unauthorized Web Servers on the Network Pose Significant Risks
          to Data Protection and Employee Productivity.............................................Page 3
                    Recommendations 1 through 3:.........................................Page 6

          Security Weaknesses Were Prevalent on All Web Servers Connected
          to the Network...............................................................................................Page 7
                    Recommendations 4 and 5: ..............................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Management’s Response to the Draft Report ......................Page 16
            Unauthorized and Insecure Internal Web Servers
        Are Connected to the Internal Revenue Service Network




                    Abbreviations

CSIRC         Computer Security Incident Response Center
IRS           Internal Revenue Service
MITS          Modernization and Information Technology Services
                            Unauthorized and Insecure Internal Web Servers
                        Are Connected to the Internal Revenue Service Network




                                            Background

A web server is a computer that contains the software necessary for a web site to operate. Web
sites provide an organization with the means to contact stakeholders, customers, and employees
for sharing information, communicating with others, and conducting business. The potential for
information sharing is enormous because the Internet is made up of more than 1 billion users and
more than 165 million web sites. The Internet is based on the premise of open accessibility.
Using the principles of the Internet, organizations can create internal web sites to share
information with employees and allow them to process work. Internal web sites are less
expensive to implement than a private network, which is based on proprietary protocols, and are
easily accessible by employees. Similar to public web sites, connecting to internal web sites and
taking advantage of their benefits also present security risks. These risks include the
unauthorized alteration of web site content, disruption of employee access to the web sites and
computer operations, and unauthorized access to web server data as well as data on the network
to which the web servers are connected.
Internal web sites are generally protected from outsiders by an organization’s firewall1
computers. This protection could give an organization a false sense of security. During the
Black Hat Security Conference2 in August 2007, two leading security professionals demonstrated
that advancements in security research will allow hackers to exploit flaws in web browsers and
employees’ use of web browsers to infiltrate and attack internal web servers with greater ease.
They further stated that organizations are unintentionally leaving the door of their information
technology operations unlocked by failing to adequately protect their internal web servers. They
concluded that organizations should begin defending their internal web servers in the same
manner as they safeguard their external web sites.
In September 2007, the Internal Revenue Service (IRS) issued a comprehensive security policy
on web servers and web software to better identify security controls and requirements for web
servers. The policy established minimum security controls to safeguard both internal and
external web servers.
This review focused on internal web servers, and any use of the term “web servers” in this report
refers to internal web servers unless otherwise noted. The review was performed at the IRS field

1
  A firewall is a computer with hardware and software that is designed to restrict access to and from an
organization’s internal network resources.
2
  Black Hat is a computer security conference held throughout the world to discuss computer security issues and
events as well as train and inform individuals about security threats that might be present on their computer
networks. Black Hat generally consists of computer hackers, security experts, government officials, and network
administrators.
                                                                                                          Page 1
                         Unauthorized and Insecure Internal Web Servers
                     Are Connected to the Internal Revenue Service Network



offices in Dallas, Texas, and Oakland, California, and at the National Headquarters in
New Carrollton, Maryland, in the Office of the Chief Information Officer during the period
September 2007 through May 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                             Unauthorized and Insecure Internal Web Servers
                         Are Connected to the Internal Revenue Service Network




                                       Results of Review

Unauthorized Web Servers on the Network Pose Significant Risks to
Data Protection and Employee Productivity
The IRS requires that business units register all internal web sites and servers with the Web
Services Division in the Modernization and Information Technology Services (MITS)
organization. The registration process–which was effective on April 1, 2006–ensures that a site
and server are a known entity on the network, an executive-level sponsor has approved the web
server for internal use, and a system administrator and webmaster have been designated to ensure
that the server’s configurations and content are maintained and updated when necessary. This
requirement is the starting point for ensuring that information residing on the IRS network is
properly protected and inventoried and data are not compromised.
To support the registration process, the IRS established a database that contains information on
all registered web sites and web servers. The information captured includes executive
sponsorship, web administrator, content manager, web site name, web site purpose, specific
machine name, operating system, and web software. As of August 2007, the IRS web
registration database contained 2,878 active web servers.
We obtained a network scan completed in September 2007 by the IRS Computer Security
Incident Response Center (CSIRC) to identify all possible web servers actually connected to the
IRS network. The scan identified 2,093 potential web servers3 that were connected to the IRS
network. We compared the CSIRC scan results to the web registration database to determine
how many web servers on the network had been registered as required. Figure 1 presents the
results of the comparison.




3
  Due to the nature of network scans, we did not have absolute assurance that the 2,093 web servers are truly web
servers. A network scan generally uses an automated program that attempts to access devices on the network and
identify certain characteristics based on a set of criteria. This CSIRC network scan was set to identify characteristics
typical for web servers. The possibility exists that other devices could have been identified as web servers, such as
multi-functional devices. However, we are confident that most, if not all, of the devices are web servers because the
September 2007 scan was refined from an earlier scan by eliminating over 7,400 peripheral devices, such as printers,
routers, and switches, and lesser known web server software packages.
                                                                                                               Page 3
                               Unauthorized and Insecure Internal Web Servers
                           Are Connected to the Internal Revenue Service Network



                Figure 1: Comparison of Web Registration Database Data and
                                 CSIRC Web Server Scan



         The web registration                                                          The September 2007
            database as of                                                              CSIRC web server
        August 2007 contained                                                             scan identified
          2,878 web servers.                                                            2,093 web servers.
          The yellow portion                                     CSIRC                   The blue portion
                                             Web
         represents 2,596 web                                   scan for               represents 1,811 web
                                         registration
           servers in the web                                     web               servers in the CSIRC web
                                          database
       registration database that                               servers              server scan that did not
       did not match the CSIRC                                                            match the web
            web server scan.                                                          registration database.



                                          The green portion represents
                                     282 web servers that were recorded on
                                     both the web registration database and
                                          the CSIRC web server scan.


    Source: Treasury Inspector General for Tax Administration match of the web registration database, as of
    August 2007, to the September 2007 CSIRC web server scan.

Our comparison of the web registration database to the CSIRC web server scan found that only
282 web servers were recorded in both data sources, shown as the green portion in Figure 1. We
identified 2,596 web servers in the registration database that were not found by the CSIRC scan,
shown as the yellow portion in Figure 1. It is likely that many of these web servers were external
web servers, no longer in existence, inaccurately recorded on the web registration database, or
changed since being registered but not updated on the web registration database.
Of greater concern are the 1,811 web servers identified by the CSIRC scan that were not
included in the web registration database, shown as the blue portion in Figure 1. These
1,811 web servers represent those that have not been authorized, yet are connected to the IRS
network. However, the unauthorized web servers could be legitimate servers supporting IRS
operations. For example, during our review, the Enterprise Operations organization4 within the
MITS was able to demonstrate that 661 (36 percent) of the 1,811 web servers had legitimate
business purposes.
Due to time constraints, we conducted only limited tests to determine whether the remaining
1,150 (1,811 – 661) unauthorized web servers were being used for non-business purposes and

4
  The Enterprise Operations organization provides efficient, cost-effective, secure and highly reliable computing
(server and mainframe) services for all IRS business entities and taxpayers.
                                                                                                              Page 4
                            Unauthorized and Insecure Internal Web Servers
                        Are Connected to the Internal Revenue Service Network



found none. We did find some that were operating unintentionally as web servers. An
unintentional web server might exist when a system administrator inadvertently misconfigures a
computer to perform as a web server or is unaware that web server capabilities are installed by
default.5 During our review, we were able to identify whether web servers were laptop and
desktop computers6 based on the computer naming convention. In the population of laptop and
desktop computers, we identified the location of 54 unauthorized web servers. We judgmentally
selected 19 of these 54 computers at 3 IRS offices and confirmed that they were valid computers
on the network but were unintentionally running web services. We advised local system
administrators of this situation, and they took actions to disable the web server capability of the
computers. Because the remaining 35 laptop and desktop computers were dispersed throughout
the country, we were unable to physically verify whether these computers were legitimate web
servers.7 We referred the remaining computers to the CSIRC for further review to determine
whether these computers are legitimate computers and authorized web servers.
When we started planning this audit in June 2007, officials from the MITS organization were
unable to tell us which office had ownership of the web registration program. As previously
discussed, the existing procedures for the web registration process cited the Web Services
Division as the responsible office. However, discussions with MITS organization personnel,
including a former Web Services Division employee, indicated that the Web Services Division
was disbanded in September 2006 and its program areas were dispersed to other MITS
organization offices.
The MITS organization did not transfer ownership of the web registration program when the
Web Services Division was disbanded in September 2006. Of greater concern, during the course
of our audit–when the MITS organization recognized the lack of program ownership–it still had
not decided which of its offices should have responsibility for the program. While MITS
organization officials did inform us that the web registration program will be taken over by the
Enterprise Networks organization,8 as of April 2008 we were unable to obtain supporting
documentation that this transfer was approved and in effect. We believe that lack of ownership

5
  The following is an illustration of an unintentional web server: Internet Information Services 5.0 was installed on
Microsoft 2000 Server by default when the operating system was loaded onto server hardware. As such, any
Windows 2000 Server built that uses default settings, be it a file server, print server, or domain controller, would
have the Internet Information Services 5.0 services installed, running, and listening for calls on the networks.
Microsoft addressed this concern by disabling the default installation of Internet Information Services 6.0 on its
Windows Server 2003.
6
  While there is no definitive rule that web sites must operate on servers, generally web servers should be computers
designated as servers rather than employee workstations. We believe that laptop and desktop computers assigned to
individual employees might be more indicative of unintentional web servers.
7
  Among the 35 laptop and desktop computers were 21 computers that supported a Wage and Investment Division
customer service program in different IRS field offices. While we were unable to physically verify these computers,
we were able to connect with them and validate their purposes.
8
  The Enterprise Networks organization serves to positively satisfy IRS business units’ requirements for all forms of
electronic communications in the most efficient and effective manner.
                                                                                                             Page 5
                            Unauthorized and Insecure Internal Web Servers
                        Are Connected to the Internal Revenue Service Network



over the web registration program adversely affected the maintenance and inventory of the web
registration database. According to IRS procedures, unregistered web servers might be blocked
from delivering information to the network. Because no office had been given responsibility for
the web registration program since September 2006, this requirement was not enforced, and web
server owners were allowed to connect their web servers to the IRS network without proper
authorization and accountability.
Other organizations under the Chief Information Officer had acknowledged that the web
registration database was inaccurate. In August 2007, the Applications Development
organization9 within the MITS reviewed a random sample of 45 computer helpdesk tickets
relating to internal web sites and found that 8 of the 45 sites were not registered on the web
registration database.

Recommendations
The Chief Information Officer should:
Recommendation 1: Establish official ownership of the web registration program and assign
responsibility for the web registration process and the web registration database. Policies and
procedures should be updated to reflect the change of ownership.
        Management’s Response: The Chief Information Officer agreed with this
        recommendation. The Associate Chief Information Officer, Enterprise Operations, was
        designated as the official for the web registration program and web registration database.
        Policies and procedures will be updated to reflect the change of ownership.
Recommendation 2: Enforce IRS procedures to block unauthorized web servers from
providing data over the IRS network. We recognize that some web servers used for legitimate
business purposes might be temporarily blocked during this effort. In these instances, web server
owners will have to quickly obtain formal authorization and be reconnected to the network. We
believe that blocking the unauthorized web servers is the most effective and efficient approach to
obtaining an accurate inventory of authorized web servers.
        Management’s Response: The Chief Information Officer agreed with this
        recommendation. The IRS will take steps to identify unauthorized web servers and will
        create a policy and procedure to prohibit them from providing data over the IRS network.
        The IRS will also establish a process to accommodate legitimate web servers affected by
        this recommendation.
Recommendation 3: Require an annual scan of web servers and compare the scan results to
the web registration database. Unauthorized web servers should be immediately disconnected

9
 The Application Development organization serves as the focal point for the IRS to define, design, build, test,
deliver, and maintain integrated information applications systems for developmental and production environments.
                                                                                                          Page 6
                            Unauthorized and Insecure Internal Web Servers
                        Are Connected to the Internal Revenue Service Network



from the IRS network architecture, and any web site identified with inappropriate content should
be referred to the Treasury Inspector General for Tax Administration Office of Investigations. In
addition, owners of registered web servers should be required to revalidate the need for the web
servers annually and immediately notify the Chief Information Officer when web servers are
decommissioned.
        Management’s Response: The Chief Information Officer agreed with this
        recommendation. The CSIRC will provide an annual report to the web registration
        database business owner to reconcile the assets. The IRS will compare the annual scans
        run by the CSIRC to the web server database and disconnect unauthorized web servers.
        Web sites identified with inappropriate content will be referred to Treasury Inspector
        General for Tax Administration Office of Investigations. The IRS will also develop a
        process to ensure that registered web server owners revalidate the need for the web
        servers annually and provide notification when web servers are decommissioned.

Security Weaknesses Were Prevalent on All Web Servers Connected
to the Network
Lack of program ownership and an inaccurate inventory can negatively affect the overall security
of web servers on the network. However, with or without an inventory, the IRS must be vigilant
in maintaining adequate security controls over web servers.
On September 14, 2007, the Cybersecurity organization within the MITS issued a comprehensive
policy to implement minimum security controls to safeguard internal web servers. In addition to
providing configuration guidance on web servers, the policy established roles and responsibilities
over web server security. For example, system owners have overall responsibility for the web
servers and should work with system administrators to ensure proper server configurations. The
system owners’ information system security staffs should provide the necessary coordination to
ensure that plans for bringing existing web servers into compliance with security procedures are
developed and communicated to IRS management. In addition, security specialists in the
Cybersecurity organization are responsible for ensuring that system administrators and other
personnel having daily operational responsibilities for IRS web servers comply with the security
requirements.
Prior to issuance of this specific guidance, the IRS had basic security requirements on server
configurations, which included web servers. In general, we found that the new policies and
procedures were consistent with the National Institute of Standards and Technology’s10
recommended security controls over web servers.


10
  The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines for providing adequate information security for all Federal Government agency
operations and assets.
                                                                                                         Page 7
                            Unauthorized and Insecure Internal Web Servers
                        Are Connected to the Internal Revenue Service Network



To evaluate compliance with security guidance, we obtained a CSIRC vulnerability scan of web
servers conducted in September 2007. This scan identified 2,093 web servers with at least
1 security vulnerability. The scan report contained:
         - 540 web servers with at least 1 of 160 high-risk vulnerabilities,
         - 1,101 web servers with at least 1 of 117 moderate-risk vulnerabilities, and
         - 2,092 web servers with at least 1 of 135 low-risk vulnerabilities.

The number of web servers did not equal 2,093 because most web servers contained at least
1 high-, 1 medium-, and 1 low-risk vulnerability.

Two examples of high-risk security vulnerabilities identified on the 540 web servers were
password and buffer overflow weaknesses.11
     •   62 web servers contained at least 1 high-risk vulnerability involving passwords.
         Specifically, the web servers had a blank password, did not require a password, and/or
         had a password that was the same as the username. These vulnerabilities significantly
         increased the risk that unauthorized users could access the web servers to alter the
         servers’ contents, copy data, install malicious programs for fraudulent purposes, or attack
         other computers on the network. Attacking other computers could provide access to
         taxpayer and personally identifiable information.
     •   130 web servers contained at least 1 high-risk vulnerability that could allow hackers to
         exploit a buffer overflow. Buffer overflows cause the software to react in an undesigned
         manner. A disgruntled employee could exploit buffer overflow vulnerabilities with
         carefully crafted executable commands as part of the invalid data and gain control over
         the web server. With full control, the individual could delete or copy the contents of the
         web server or attack other computers on the network, similar to the effects of password
         deficiencies discussed above.
Unauthorized servers pose a greater risk because the IRS has no way to ensure that they will be
continually configured in accordance with security standards and patched12 when new
vulnerabilities are identified. Malicious hackers or employees could exploit the vulnerabilities
on these web servers to manipulate data on the servers or to use the servers as launch points to
attack other computers connected to the network.
We believe that these web servers had security weaknesses primarily because employees were
not performing their duties as required. Specifically, system owners were not providing overall


11
  Buffer overflows are caused by inputting invalid data into web servers.
12
  A patch is a fix of a design flaw in a computer program. Patches must be installed or applied to the appropriate
computer for the flaw to be corrected.
                                                                                                             Page 8
                            Unauthorized and Insecure Internal Web Servers
                        Are Connected to the Internal Revenue Service Network



security emphasis over their own systems to ensure secure configurations, system administrators
did not configure or maintain web servers in accordance with security guidance, and security
specialists were not monitoring web servers to identify noncompliant servers.
We acknowledge that compliance with security requirements was probably affected by the
timing of the issuance of the security policies and procedures for web servers. During our
review, security specialists within the Office of Cybersecurity started working with local system
administrators and system owners to resolve security weaknesses identified by the
September 2007 CSIRC scan of vulnerable web servers. However, another network scan for
servers completed in March 2008 showed that, of the 2,093 web servers previously identified
with security vulnerabilities from the September 2007 scan, 1,936 still had at least 1 security
vulnerability. The March 2008 vulnerability scan report contained 437 web servers with
high-risk vulnerabilities and 699 web servers with moderate-risk vulnerabilities. While some
improvements have been made, continued efforts are needed to ensure that security
vulnerabilities are corrected or mitigated.
In addition to security vulnerabilities on web servers, we were concerned about the number of
web software packages being used on the servers. We attempted to obtain a list of web software
packages the IRS had approved for its web servers. Officials from the MITS organization
informed us that it does not maintain a list of approved web software packages outside of the
modernized environment. For the modernized web servers, the Office of Enterprise Architecture
has approved three web software packages for use: Microsoft® Internet Information Server,
IBM WebSphere® Application Server, and Oracle® web software.
According to IRS web server security policies and procedures, only web server products and
platforms identified by the Office of Enterprise Architecture should be used, and products and
associated platforms not approved by the Office of Enterprise Architecture require a formal
written waiver. The security procedures also provide specific web software security
requirements for Microsoft® Internet Information Server, IBM WebSphere® Application Server,
Microsoft® .NET Framework, Apache™13 HTTP Server, and Apache™ Tomcat Server.
The June 2007 CSIRC network scan identified 2,568 potential web servers connected to the IRS
network. Among the web software packages included in the 2,568 web servers were:
     •   Microsoft® Internet Information Server – 1,393.
     •   Apache™ – 827.
     •   Oracle® web software – 15.
The remaining 333 web servers were running 30 other web server software packages. Included
in the 30 software packages was embedded web software associated with hardware devices.

13
  Apache™ is free software that is typically bundled with most UNIX operating systems and works with other
applications including IBM WebSphere® and Oracle® as a component of their application servers. Security policies
and procedures over web servers provide configuration guidance for Apache web software.
                                                                                                         Page 9
                         Unauthorized and Insecure Internal Web Servers
                     Are Connected to the Internal Revenue Service Network



While having 33 different web server software packages might be justified, we believe that using
as few products as possible would limit security risks, such as monitoring for security
vulnerabilities due to software deficiencies and patching known security vulnerabilities, and
control costs, such as licensing fees, training money, and maintenance costs.

Recommendations
The Chief Information Officer should:
Recommendation 4: Require quarterly network scans of web servers to measure compliance
with security requirements. These scan results should be shared with business unit executives as
well as local system administrators to ensure timely tracking and resolution of the vulnerabilities.
Repeated noncompliance should be referred to managers of the local web administrators for
performance evaluation purposes.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation. The CSIRC will perform quarterly security assessments of web servers
       to measure compliance with security requirements, and the IRS will review the scans and
       share the results with business unit executives and local administrators. Business owners
       and system administrators must eliminate the vulnerabilities.
Recommendation 5: Formally limit the number of approved web software packages for web
servers used in the non-modernized environment.
       Management’s Response: The Chief Information Officer agreed with this
       recommendation. The IRS will investigate the web server packages currently in use and
       work with the Office of Enterprise Architecture to create a list of approved software.
       Business owners will be accountable for adhering to the list of approved software.




                                                                                            Page 10
                        Unauthorized and Insecure Internal Web Servers
                    Are Connected to the Internal Revenue Service Network



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is adequately securing and
controlling its web servers. The audit focused on the security of internal IRS web servers on the
IRS network. To accomplish our objective, we:
I.     Determined whether the IRS was properly accounting for and controlling its web servers.
       A. Evaluated policies and procedures over the ownership, inventory, and accountability
          of web servers.
           1. Identified IRS policies and procedures over asset management for web servers.
           2. Determined compliance with policies and procedures established to ensure that all
              web servers are identified and controlled.
       B. Identified and obtained sources of web server inventory records. We obtained the
          following sources of information:
           1. CSIRC scan report, dated June 2007, that listed 2,568 web servers.
           2. CSRIC scan report, dated September 2007, that listed 2,093 web servers.
           3. CSRIC scan report, dated March 2008, that listed 1,937 web servers.
           4. Enterprise Operations organization spreadsheet, dated October 2007, that included
              1,008 web servers.
           5. Enterprise Services organization web registration database, dated August 2007,
              that contained 2,878 active web servers. We validated the reliability and accuracy
              of the web registration database by comparing it to the CSIRC scan report dated
              September 2007.
       C. Coordinated with the MITS organization to identify ownership, location, business
          need, and purpose for the 2,093 web servers identified in the September 2007 CSIRC
          scan.
           1. Identified 1,811 unauthorized web servers by matching the September 2007
              CSIRC scan results to the web registration database.
           2. Coordinated with the Enterprise Operations organization and identified 1,150 web
              servers not owned by the Enterprise Operations organization and/or registered
              with the web registration program.


                                                                                         Page 11
                            Unauthorized and Insecure Internal Web Servers
                        Are Connected to the Internal Revenue Service Network



             3. Researched the 1,150 web servers on the IRS online Enterprise System
                Management system1 to identify contact point and location. We judgmentally
                selected 19 computers at 3 IRS offices and confirmed whether they were valid
                computers on the network but were unintentionally running web servers. The
                three offices visited were the IRS field offices in Dallas, Texas, and
                Oakland, California, and the National Headquarters in New Carrollton, Maryland.
                We used a judgmental sample because we did not plan to project the audit results.
             4. For those web servers for which ownership could not be identified by the
                Enterprise Operations organization or our own research, referred the list to the
                MITS Program Oversight organization to determine the best approach to identify
                organizations responsible for the web servers.
        D. Identified 33 different web software packages connected to the IRS network from the
           June 2007 CSIRC scan with 2,568 web servers. We used the June 2007 CSIRC scan
           because the September 2007 CSIRC scan did not include identification of web
           software packages.
             1. Obtained names of approved web software from the Office of Enterprise
                Architecture and compared them to the list of web software identified in the
                CSIRC scan of 2,568 web servers.
             2. Obtained feedback from the MITS organization on its perspective on web
                software usage.
II.     Determined whether the IRS was adequately securing web servers.
        A. Evaluated policies and procedures for security over web servers. We compared
           Internal Revenue Manual section 10.8.42 v17, entitled Web Server and Web
           Applications Security, to the National Institute of Standards and Technology2 Guide
           for Assessing the Security Controls in Federal Information Systems (Special
           Publication 800-53).
        B. Analyzed available vulnerability scans.
             1. Identified those web servers that failed the June 2007 and March 2008 CSIRC
                vulnerability scans with high-, medium-, and/or low-risk vulnerabilities.




1
  The IRS online Enterprise System Management system provides design, development, deployment, and
operational support for the enterprise-wide management of IRS computers.
2
  The National Institute of Standards and Technology, under the Department of Commerce, is responsible for
developing standards and guidelines for providing adequate information security for all Federal Government agency
operations and assets.
                                                                                                        Page 12
             Unauthorized and Insecure Internal Web Servers
         Are Connected to the Internal Revenue Service Network



2. Determined whether the CSIRC followed up with server owners on web servers
   with high-risk vulnerabilities, resolved the weaknesses, and identified why the
   vulnerabilities existed.
3. Determined whether the CSIRC conducted regular scans of the network to
   identify unauthorized web servers, non-standardized web software, or vulnerable
   web servers.




                                                                            Page 13
                        Unauthorized and Insecure Internal Web Servers
                    Are Connected to the Internal Revenue Service Network



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
David Brown, Senior Auditor
Louis Lee, Senior Auditor
Abraham Millado, Senior Auditor
Midori Ohno, Senior Auditor
William Simmons, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                      Page 14
                      Unauthorized and Insecure Internal Web Servers
                  Are Connected to the Internal Revenue Service Network



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Cybersecurity OS:CIO:C
Associate Chief Information Officer, Enterprise Networks OS:CIO:EN
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Information Officer OS:CIO




                                                                                Page 15
          Unauthorized and Insecure Internal Web Servers
      Are Connected to the Internal Revenue Service Network



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 16
    Unauthorized and Insecure Internal Web Servers
Are Connected to the Internal Revenue Service Network




                                                   Page 17
    Unauthorized and Insecure Internal Web Servers
Are Connected to the Internal Revenue Service Network




                                                   Page 18
    Unauthorized and Insecure Internal Web Servers
Are Connected to the Internal Revenue Service Network




                                                   Page 19
